BREDHOFF & KAISER, P.L.L.C.
Bruce R. Lerner
Andrew D. Roth
Douglas L. Greenfield
Roger Pollak
Anne Ronnel Mayerson
Leon Dayan
Devki K. Virk
Robert Alexander
Matthew Clash-Drexler
Abigail V. Carter
Joshua B. Shiffrin
Jenifer A. Cromwell
Ramya Ravindran
Jacob Karabell
Caitlin Kekacs

Attorneys & Counselors
805 Fifteenth Street NW – Suite 1000
Washington, D.C. 20005
(202) 842-2600 TEL
(202) 842-1888 FAX
www.bredhoff.com

Adam Bellotti
Joshua A. Segal
Elisabeth Oppenheimer
Georgina C. Yeomans
April H. Pullium
Dana M. Krohn
——————

Richard F. Griffin, Jr.
Kathleen Keller
Philip C. Andonian
Deva A. Kyle
Of Counsel

Elliot Bredhoff
(1921 – 2004)

Henry Kaiser
(1911 - 1989)

——————

Robert M. Weinberg
Julia Penny Clark
Jeffrey R. Freund
Jeremiah A. Collins
Mady Gilson
John M. West
Senior Counsel

June 10, 2020
Via Electronic Filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, DC 20543-0001
Re: Signode Indus. Grp. LLC et al. v. Stone et al., No. 19-1334
Dear Mr. Harris:
We represent respondents Harold Stone, John Woestman, and United Steel,
Paper, & Forestry, Rubber, Manufacturing, Energy, Allied Industrial & Service
Workers International Union, AFL-CIO-CLC (“USW”) in the above-captioned
matter, which was docketed June 2, 2020. We write, pursuant to Supreme Court
Rule 30.4, to request a 29-day extension of time in which to file Respondents’ brief
in opposition to the pending petition for certiorari. The brief in opposition is
currently due on July 2, 2020.
This extension request is made in part because of the additional difficulties of
preparing a brief while working from home as a result of the COVID-19 pandemic,
and in part because undersigned counsel was only recently engaged in this matter.
A 29-day extension to and including July 31, 2020 will ensure that we have
sufficient time to fully analyze and respond to the arguments raised in the Petition.

Hon. Scott S. Harris
June 10, 2020
Page 2
We have conferred with Joseph J. Torres, Counsel of Record for Petitioners,
and have been advised that the request is not opposed.
Thank you for your consideration in this matter.
Respectfully submitted,
/s/ Leon Dayan
Leon Dayan
Robert Alexander
Counsel for Respondents
cc: Counsel of Record
(via e-mail and Overnight Mail)

Hon. Scott S. Harris
June 10, 2020
Page 3
CERTIFICATE OF SERVICE
I, Leon Dayan, herby certify that on June 10, 2020, I caused to be served this
letter motion for extension of time via electronic mail and overnight mail on the
following counsel of record:
Joseph James Torres
Jenner & Block LLP
353 N. Clark Street
Chicago, IL 60654
(312)-840-8685
JTorres@jenner.com
Dated: June 10, 2020

/s/ Leon Dayan
Leon Dayan

